TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2011 Statutory Review of
                    Compliance With Legal Guidelines When
                                Issuing Levies



                                          March 30, 2011

                              Reference Number: 2011-30-036




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     HIGHLIGHTS


FISCAL YEAR 2011 STATUTORY                              and the Integrated Collection System and
REVIEW OF COMPLIANCE WITH LEGAL                         determined that systemic controls were
GUIDELINES WHEN ISSUING LEVIES                          effective to ensure the taxpayers were given
                                                        notice of their appeal rights at least
                                                        30 calendar days prior to the issuance of the
Highlights                                              levies. In addition, TIGTA identified
                                                        60 manual levies issued by employees on
Final Report issued on March 30, 2011                   those same systems and determined that all
                                                        the taxpayers were given notice of their
                                                        appeal rights at least 30 calendar days prior
Highlights of Reference Number: 2011-30-036
                                                        to issuance of the levies.
to the Internal Revenue Service Commissioner
for the Small Business/Self-Employed Division.          WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS                                     TIGTA did not make any recommendations in
                                                        this report. However, a draft of the report was
The Internal Revenue Service (IRS)
                                                        provided to the IRS for review and comment.
Restructuring and Reform Act of 1998 requires
                                                        The IRS had no comments on the report.
the IRS to notify taxpayers of the intent to levy
at least 30 calendar days before initiating any
levy action to give taxpayers an opportunity to
formally appeal the proposed levy. TIGTA
determined that the IRS has sufficient controls
in place to ensure that taxpayers are advised of
their right to a hearing at least 30 calendar days
prior to levy action.
WHY TIGTA DID THE AUDIT
When taxpayers do not pay delinquent taxes,
the IRS has the authority to work directly with
financial institutions and other third parties to
seize taxpayers’ assets. This action is
commonly referred to as a “levy.” The IRS
Collection function issues levies.
This audit was initiated because TIGTA is
responsible for annually determining whether
the IRS complied with the IRS Restructuring
and Reform Act of 1998 requirement that the
IRS notify taxpayers prior to issuing levies.
This is the thirteenth audit report on this subject
area. The overall objective of this review was
to determine whether the IRS has complied with
26 United States Code Section 6330, Notice
and Opportunity for Hearing Before Levy.
WHAT TIGTA FOUND
The IRS is protecting taxpayers’ rights when
issuing systemically generated and manually
prepared levies. TIGTA reviewed 30
systemically generated levies identified
through the Automated Collection System
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 30, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2011 Statutory Review of Compliance
                               With Legal Guidelines When Issuing Levies (Audit # 201130003)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has complied with 26 United States Code (U.S.C.) Section (§) 6330, Notice and
 Opportunity for Hearing Before Levy.1 This audit is statutorily required in each fiscal year and
 addresses the major management challenge of Taxpayer Protection and Rights.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. IRS management did not provide us with any report
 comments.
 Copies of this report are also being sent to the IRS managers affected by the report findings.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
  26 U.S.C. § 6330 (Supp. IV 2010) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
 Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
 of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
                         Fiscal Year 2011 Statutory Review of Compliance With Legal
                                       Guidelines When Issuing Levies




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Controls Implemented to Protect Taxpayer Rights During the
          Issuance of Systemic Levies Are Operating Effectively .............................. Page 4
          Employees Properly Notified Taxpayers of Their Appeal
          Rights Prior to Issuing Manual Levies.......................................................... Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 9
          Appendix III – Report Distribution List ....................................................... Page 10
          Appendix IV – Example of Levy (Form 668-B) ....................................... Page 11
          Appendix V – Previous Audit Reports Related to This
          Statutory Review ........................................................................................... Page 12
         Fiscal Year 2011 Statutory Review of Compliance With Legal
                       Guidelines When Issuing Levies




                       Abbreviations

ACS              Automated Collection System
ICS              Integrated Collection System
IRS              Internal Revenue Service
U.S.C.           United States Code
                     Fiscal Year 2011 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies




                                            Background

When taxpayers do not pay delinquent taxes, the Internal
Revenue Service (IRS) has the authority to work directly                The Treasury Inspector General
                                                                            for Tax Administration is
with financial institutions and other third parties to seize               required to annually verify
taxpayers’ assets. This action is commonly referred to                   whether the IRS is complying
as a “levy” (see Appendix IV for an example of a Levy                   with the IRS Restructuring and
(Form 668-B)). The IRS Restructuring and Reform Act                     Reform Act of 1998 requirement
of 19981 created the provisions of 26 United States Code                  to notify the taxpayer of the
                                                                               intent to levy at least
(U.S.C.) Section (§) 6330,2 that requires the IRS to                         30 calendar days before
notify the taxpayer of the intention to levy at least                         initiating a levy action.
30 calendar days before initiating a levy action to give
the taxpayer an opportunity to formally appeal the
proposed levy.
The IRS Restructuring and Reform Act of 1998 also requires the Treasury Inspector General for
Tax Administration to annually verify whether the IRS is complying with the provisions. This is
the thirteenth year in which we have evaluated the controls over levies.
To collect delinquent taxes, levies are issued either systemically or manually by two operations
within the IRS:
    •   The Automated Collection System (ACS), through which customer service
        representatives contact delinquent taxpayers by telephone to collect unpaid taxes and
        secure tax returns.
    •   The Collection Field function, where revenue officers contact delinquent taxpayers in
        person. Delinquent cases assigned to revenue officers in the field offices are controlled
        and monitored with the automated Integrated Collection System (ICS).
Virtually all levies issued by customer service representatives are generated through the ACS.
To comply with requirements in the IRS Restructuring and Reform Act of 1998, the ACS
contains a control that systematically prevents a levy from being generated if the taxpayer was
not properly notified of the intent to levy. The ACS will only allow the issuance of a levy if


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  26 U.S.C. § 6330 (Supp. IV 2010) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
                                                                                                           Page 1
                         Fiscal Year 2011 Statutory Review of Compliance With Legal
                                       Guidelines When Issuing Levies



there are at least 30 calendar days between the date the taxpayer was notified of the pending levy
and the date requested for the actual issuance of the levy. In addition, managers approve the
majority of the systemic ACS levy actions. Even when an employee manually generates the
request for a levy (as opposed to the system generating the request), the systemic controls of at
least 30 calendar days’ notice are in place. Also, managers are required to approve all manual
levies before they are mailed. We estimate that customer service representatives manually
generated about 12 percent of all levies issued through the ACS during our audit period.
The ICS includes a control, similar to the control in the ACS, which prevents revenue officers
from issuing levies unless taxpayers have received 30 calendar days’ notice and have been
informed of their appeal rights. If fewer than 30 calendar days have elapsed since the final
notice date, the ICS will not generate a levy.
Previous Treasury Inspector General for Tax Administration audit reports3 have recognized that
the IRS has significantly improved controls over the issuance of systemically generated levies,
primarily due to the development of these systemic controls in both the ACS and the ICS. Based
on previous audit results, we consider the controls to be strong and, therefore, we reviewed only
a limited sample of systemic levies to ensure that the controls were still effective.
There is a higher risk when revenue officers issue manual levies because they request these
levies outside of the systemic controls that exist and not all manual levies receive managerial
approval as do ACS levies. Treasury Inspector General for Tax Administration audit reports
issued prior to Fiscal Year 2005 reported that additional controls were needed over manual levies
issued by revenue officers; however, since our Fiscal Year 2005 report, we have reported that
revenue officers properly notified taxpayers of their right to a hearing when issuing manual
levies. However, we consider the risk high and continue to test the manual levies.
Because the ICS is not generating the manual levies, we cannot be assured that there is a
complete automated trail for these levies. Therefore, it is impossible to reliably determine the
exact number of manual levies issued by revenue officers during our review period. However,
we estimate that revenue officer requests for manual levies were less than 1 percent of all levies
requested by revenue officers.
This review was performed at the Small Business/Self-Employed Division National
Headquarters Collection function office in New Carrollton, Maryland, during the period
September 2010 through February 2011. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit


3
    See Appendix V for a list of previous audit reports related to this review.

                                                                                            Page 2
                  Fiscal Year 2011 Statutory Review of Compliance With Legal
                                Guidelines When Issuing Levies



objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                   Fiscal Year 2011 Statutory Review of Compliance With Legal
                                 Guidelines When Issuing Levies




                                  Results of Review

Controls Implemented to Protect Taxpayer Rights During the Issuance
of Systemic Levies Are Operating Effectively
Our review of systemically generated levies showed that
                                                                       Taxpayers were given notice
taxpayers’ rights were protected. The IRS gave taxpayers                of their appeal rights when
notice of their appeal rights at least 30 calendar days prior to the   systemic levies were issued.
issuance of the levies.
ACS systemic controls are effective
The first step in the collection process involves mailing taxpayers a series of notices asking for
payment of delinquent taxes. If taxpayers do not comply, the majority of the accounts are
forwarded to an ACS Call Center where customer service representatives contact taxpayers by
telephone to resolve their accounts. If accounts cannot be resolved, these representatives have
the authority to issue levies.
Virtually all levies issued by customer service representatives are generated through the ACS,
which contains a control developed to comply with the IRS Restructuring and Reform Act
of 1998 that compares the date the taxpayer was notified of the pending levy with the date
requested for the actual issuance of the levy. If there are fewer than 30 calendar days between
the dates, the ACS will not generate a levy. This control is designed to ensure that taxpayers
have been notified at least 30 calendar days prior to the levies and have been informed of their
appeal rights for any systemically generated levies.
We tested the effectiveness of this control by reviewing a random sample of 15 levies issued
through the ACS between July 1, 2009, and June 30, 2010. We compared the date of the final
notification letter to the date of the issuance of the levy. All 15 taxpayers were timely notified of
their appeal rights. Therefore, the systemic controls in the ACS Call Centers effectively
protected taxpayers’ appeal rights.
ICS systemic controls are effective
Many times, notices and telephone calls to taxpayers do not successfully resolve delinquent
accounts, and cases have to be assigned to revenue officers in Collection Field function offices
for face-to-face contact with taxpayers. Cases assigned to Collection Field function revenue
officers are controlled on the ICS. Revenue officers use the ICS to record collection activity on
delinquent cases and to generate enforcement actions such as levies.


                                                                                              Page 4
                      Fiscal Year 2011 Statutory Review of Compliance With Legal
                                    Guidelines When Issuing Levies



The IRS installed a control in the ICS similar to the control in the ACS that prevents levies from
being issued unless taxpayers have received 30 calendar days’ notice and have been informed of
their appeal rights. If fewer than 30 calendar days have elapsed since the final notice date, the
ICS will not generate a levy.
We tested the effectiveness of this control by reviewing a random sample of 15 systemically
generated levies issued through the ICS between July 1, 2009, and June 30, 2010. We compared
the date of the final notification letter to the date of the issuance of the levy. All 15 taxpayers
had received notification of their appeal rights at least 30 calendar days prior to the levies.
Therefore, the systemic controls over levies issued by revenue officers in Collection Field
function offices effectively protected taxpayers’ appeal rights.
Employees Properly Notified Taxpayers of Their Appeal Rights Prior
to Issuing Manual Levies
Although the ACS function primarily issues levies systemically, customer service representatives
may also request manual levies under certain circumstances, such as levies on Individual
Retirement Arrangements and in jeopardy situations.4 Manual levies require the same advance
notification to the taxpayer as systemic levies, except in cases involving jeopardy situations. IRS
procedures require that manual levies issued by customer service representatives be reviewed
and approved by a manager prior to the levies being issued. We consider this managerial review
to be an effective control.
We analyzed the case histories for ACS function cases
to identify any manual levies issued between                           Our review of 30 ACS function
July 1, 2009, and June 30, 2010. Because there is no                     and 30 ICS manual levies
automated audit trail produced for manual levies, we                      determined that the IRS
used employee and action codes5 as the basis to                         protected taxpayers’ appeal
identify any potential manual levies issued by ACS                         rights in these cases.
function employees. Our review of 30 manual levies
issued by customer service representatives showed that
the IRS adequately protected taxpayers’ appeal rights.
Revenue officers issue levies systemically through the ICS in most cases. They are also
authorized to issue a manual levy on any case as needed. While managerial approval is
mandatory for manual levies issued by the ACS function, no review or approval is required when
revenue officers issue manual levies. We believe there is a high risk associated with manual
levies issued by revenue officers because no review is required.

4
  A jeopardy situation occurs when the IRS is concerned that the taxpayer may attempt to hide or dispose of assets to
prevent enforced collection actions.
5
  The action code shows what action was taken, such as levy. The employee code shows whether there was a
system-generated action or an employee-generated action.
                                                                                                             Page 5
                 Fiscal Year 2011 Statutory Review of Compliance With Legal
                               Guidelines When Issuing Levies



We analyzed the ICS case inventory assigned to revenue officers to identify any manual levies
issued between July 1, 2009, and June 30, 2010. Because no automated audit trail is produced
for manual levies, we analyzed case history comments for any reference to a manual levy. Using
this methodology, we identified cases in which a manual levy was issued to seize taxpayers’
assets and reviewed a judgmental sample of 30 cases. In all 30 cases, taxpayers received proper
notification of their rights.




                                                                                        Page 6
                      Fiscal Year 2011 Statutory Review of Compliance With Legal
                                    Guidelines When Issuing Levies



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has complied with
26 U.S.C. § 6330, Notice and Opportunity for Hearing Before Levy.1 To accomplish our
objective, we:
I.       Determined whether manual levies issued by both revenue officers and ACS2 function
         customer service representatives complied with legal guidelines in 26 U.S.C. § 6330.
         A. Identified any references to manual levies issued between July 1, 2009, and
            June 30, 2010, by querying the history narrative text field of the ICS3 open case
            inventories. We identified 441 potential manual levies involving 348 taxpayers and
            reviewed a judgmental sample of 30 manual levies from the open ICS cases. We
            used judgmental sampling because we could not systemically identify the population
            of manual levies issued.
         B. Selected a random sample of 30 manual levies from 184,785 employee-requested
            levies, involving 130,568 taxpayers, on the ACS between July 1, 2009, and
            June 30, 2010. We used random sampling to ensure each levy had an equal chance of
            being selected but did not intend to project the results of our sample to the population.
            We used the employee and action codes on the ACS to identify the manual levies.4
         C. Requested and analyzed case histories for all cases containing references to manual
            levies identified in Steps I.A. and I.B.
         D. Reviewed case history documentation and identified whether a revenue officer or an
            ACS function customer service representative had issued a manual levy.




1
  26 U.S.C. § 6330 (Supp. IV 2010) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
2
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
3
  An automated system used to control and monitor delinquent cases assigned to revenue officers in the field offices.
4
  The action code shows what action was taken, such as levy. The employee code shows whether there was a
system-generated action or an employee-generated action.
                                                                                                             Page 7
                     Fiscal Year 2011 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies



        E. Analyzed Master File5 transcripts and ACS and ICS case histories to determine
           whether taxpayers were provided at least 30 calendar days’ notice prior to any levy
           actions initiated by the IRS.
II.     Determined whether the IRS maintains sufficient automated controls and procedures to
        ensure that taxpayers are advised of their right to a hearing at least 30 calendar days prior
        to any levy action by testing systemically generated levies.
        A. Selected a random sample of 15 ACS levies from the population of approximately
           1,310,153 levies involving 763,163 taxpayers and 15 ICS levies from the population
           of approximately 520,794 levies involving 110,549 taxpayers issued between
           July 1, 2009, and June 30, 2010, from the ACS and ICS databases of open cases
           maintained in the Treasury Inspector General for Tax Administration Data Center
           Warehouse.6 We did not plan to use statistical sampling because, based on prior
           years’ testing, we did not anticipate finding any errors and the controls are strong.
        B. Analyzed Master File transcripts and case histories as necessary to verify that
           taxpayers were advised of their right to a hearing at least 30 calendar days prior to
           any levy action.
III.    Validated data from the ACS and ICS by relying on Treasury Inspector General for Tax
        Administration Data Center Warehouse site procedures that ensure that data received
        from the IRS are valid. The Data Center Warehouse performs various procedures to
        ensure that it receives all the records in the ACS, ICS, and IRS databases. In addition, we
        scanned the data for reasonableness and are satisfied that the data are sufficient,
        complete, and relevant to the review. All the levies identified are in the appropriate
        period, and the data appeared to be logical.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division Collection function’s automated controls in place that prevent the issuance of levies
prior to 30 calendar days before initiating any levy action and managerial reviews.




5
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
6
  A centralized storage and administration of files that provides data and data access services of IRS data.
                                                                                                            Page 8
                 Fiscal Year 2011 Statutory Review of Compliance With Legal
                               Guidelines When Issuing Levies



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Phyllis Heald London, Audit Manager
Doris A. Cervantes, Lead Auditor
Frank Maletta, Auditor




                                                                                      Page 9
                 Fiscal Year 2011 Statutory Review of Compliance With Legal
                               Guidelines When Issuing Levies



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 10
Fiscal Year 2011 Statutory Review of Compliance With Legal
              Guidelines When Issuing Levies



                                               Appendix IV

  Example of Levy (Form 668-B)




                                                      Page 11
                 Fiscal Year 2011 Statutory Review of Compliance With Legal
                               Guidelines When Issuing Levies



                                                                             Appendix V

    Previous Audit Reports Related to This Statutory
                        Review

The Internal Revenue Service Has Not Fully Implemented Procedures to Notify Taxpayers
Before Taking Their Funds for Payment of Tax (Reference Number 1999-10-071, dated
September 29, 1999).
The Internal Revenue Service Has Significantly Improved Its Compliance With Levy
Requirements (Reference Number 2000-10-150, dated September 20, 2000).
The Internal Revenue Service Complied With Levy Requirements (Reference
Number 2001-10-113, dated July 23, 2001).
The Internal Revenue Service Has Improved Controls Over the Issuance of Levies, But More
Should Be Done (Reference Number 2002-40-176, dated September 18, 2002).
The Internal Revenue Service Does Not Have Controls Over Manual Levies to Protect the Rights
of Taxpayers (Reference Number 2003-40-129, dated June 26, 2003).
Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected When Manual Levies
Are Issued (Reference Number 2004-30-094, dated April 29, 2004).
Taxpayer Rights Are Being Protected When Levies Are Issued (Reference Number 2005-30-072,
dated June 1, 2005).
Fiscal Year 2006 Statutory Review of Compliance With Legal Guidelines When Issuing Levies
(Reference Number 2006-30-101, dated August 4, 2006).
Fiscal Year 2007 Statutory Review of Compliance With Legal Guidelines When Issuing Levies
(Reference Number 2007-30-070, dated April 20, 2007).
Fiscal Year 2008 Statutory Review of Compliance With Legal Guidelines When Issuing Levies
(Reference Number 2008-30-097, dated April 15, 2008).
Fiscal Year 2009 Statutory Review of Compliance With Legal Guidelines When Issuing Levies
(Reference Number 2009-30-070, dated May 12, 2009).
Fiscal Year 2010 Statutory Review of Compliance With Legal Guidelines When Issuing Levies
(Reference Number 2010-30-068, dated June 15, 2010).




                                                                                    Page 12
